No. 20-885
Iu the Supreme Court of the United States
NEXT ENERGY, LLC, Petitioner,
v
ILLINOIS DEPARTMENT OF NATURAL RESOURCES, Respondent.

On Petition for Writ of Certiorari
to the Illinois Appellate Court

CERTIFICATE OF SERVICE

I, Jane Elinor Notz, a member of the Bar of this Court, certify that on April 21,
2021, I emailed a copy of the BRIEF IN OPPOSITION FOR RESPONDENT
ILLINOIS DEPARTMENT OF NATURAL RESOURCES in the above entitled case
to all parties required to be served, and who consented to electronic service only,
pursuant to this Court’s order of April 15, 2020, strongly encouraging electronic
service when feasible. That email was addressed to the following:

Rodney V. Taylor
Counsel for Petitioner
rodtaylor@abatelegal.com

  
 
 

=\\
ane Elinor Notz
100 West Randolph Streét
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il-us
Counsel for Respondent

  
 
 
